APPENDIX

la
APPENDIX A — OPINION OF THE UNITED
STATES COURT OF APPEALS FOR THE
NINTH CIRCUIT, FILED OCTOBER 29, 2018
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
No. 17-55355
LPP MORTGAGE LTD, LP,
Plaintiff-counter-defendant-Appellee,
v.
DAVID W. GATES, Trustee of the David W. Gates
Trust dated August 5,1996,
Defendant-counter-claimant-Appellant.
October 22, 2018, Submitted*
October 29,2018, Filed
Judges: Before: SILVERMAN, GRABER, and GOULD,
Circuit Judges.
Appeal from the United States District Court for the
Central District of California Dale S. Fischer, District
Judge, Presiding

* The panel unanimously concludes this case is suitable for
decision without oral argument. See Fed. R. App. P. 34(a)(2).

2a
Appendix A
MEMORANDUM**
David W. Gates appeals from the district court’s
summary judgment for LPP Mortgage Ltd., LP in its
diversity action seeking judicial foreclosure and order
dismissing Gates’s counterclaim. We have jurisdiction
under 28 U.S.C. § 1291. We review de novo. Doe v. Abbott
Labs., 571 F.3d 930, 933 (9th Cir. 2009). We affirm.
The district court properly dismissed as time-barred
Gates’s Truth in Lending Act (“TILA”) counterclaim
because Gates filed his action after the applicable
statute of limitations had run. See 15 U.S.C. § 1635(f)
(three-year period to exercise right of rescission under
TILA); Miguel v. Country Funding Corp., 309 F.3d 1161,
1164 (9th Cir. 2002) (three-year limitation period under
TILA is a statute of repose that once expired completely
extinguishes the underlying right).
The district court properly granted summary
judgment on LPP’s judicial foreclosure claim because
LPP established each of the required elements for judicial
foreclosure by competent evidence at summary judgment,
and Gates failed to raise a genuine dispute as to any
material fact. See Cal. Civ. Proc. Code § 725a, § 726;
Arabia v. BAC Home Loans Servicing, L.P., 208 Cal.
App. 4th 462, .145 Cal. Rptr. 3d 678, 685 (Ct. App. 2012)
(requirements for judicial foreclosure).
** This disposition is not appropriate for publication and is
not precedent except as provided by Ninth Circuit Rule 36-3.

3a
Appendix A
The district court did not abuse its discretion by
awarding attorney’s fees in the amount of $17,474.50,
jointly and severally, as a sanction against Gates and his
attorney. See Christian v. Mattel, Inc., 286 F.3d 1118,
1126-28 (9th Cir. 2002) (setting forth standard of review
and describing grounds for Rule 11 sanctions); see also
Riverhead Sav. Bank v. Nat’l Mortg. Equity Corp., 893
F.2d 1109,1113 (9th Cir. 1990) (concluding that jurisdiction
to hear an appeal exists where a sanctions award was
imposed jointly and severally on the defendants and their
non-party counsel). Contrary to Gates’s contention, there
are no nonfrivolous arguments to support his theory that
the Supreme Court’s decision in Jesinoski v. Countrywide
Home Loans, Inc., 135 S. Ct. 790, 190 L. Ed. 2d 650
(2015), revived his time-barred claim for rescission. See
Fed. R. Civ. P. 11(b) & advisory committee’s note to 1993
amendment (arguments for modification or reversal
of existing law do not violate Rule 11(b)(2) if they are
nonfrivolous under an objective standard).
In his opening brief, Gates fails to challenge the
district court’s determination under Rule 11 that he
brought his counterclaim for an improper purpose, and
he has therefore waived any such challenge. See Smith v.
Marsh, 194 F.3d 1045,1052 (9th Cir. 1999) (“[0]n appeal,
arguments not raised by a party in its opening brief are
deemed waived.”); Greenwood v. FAA, 28 F.3d 971, 977
(9th Cir. 1994) (“We will not manufacture arguments for
an appellant....”).
AFFIRMED.

4a
APPENDIX B — MEMORANDUM OF THE
UNITED STATES DISTRICT COURT FOR THE
CENTRAL DISTRICT OF CALIFORNIA,
DATED FEBRUARY 17, 2017
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
MEMORANDUM
Case No. CV15-10008 DSF (PLAx)
Date

02/17/17

Title

LPP Mortgage Ltd., L.P. v. David W. Gates,7
)
et al.

Present: The Honorable DALE S. FISCHER,
United States District Judge
Proceedings: (In Chambers) Order GRANTING
Plaintiffs Motion for Attorney’s
Fees (Dkt. 94) .
I. BACKGROUND
The Court granted Plaintiff LPP Mortgage Ltd.,
L.P.’s motion for summary judgment against Defendant
David W. Gates, Trustee of the David W. Gates Trust
dated August 5,1996 on its claim seeking to foreclose on
real property located in Santa Barbara, California. Dkt.
92. Default was previously entered against Defendant
JPMorgan Chase Bank, N.A., as acquirer of certain
assets and liabilities of Washington Mutual Bank from

5a
Appendix B
the Federal Deposit Insurance Corporation, as Receiver
for Washington Mutual Bank. Dkt. 38.1 The Court also
dismissed Gates’s counterclaim against LPR Dkt. 54. LPP
now moves for an award of attorney’s fees and costs. The
Court deems this matter appropriate for decision without
oral argument. See Fed. R. Civ. P. 78; Local Rule 7-15.
The hearing set for February 27, 2017 is removed from
the Court’s calendar. The motion is GRANTED.
II. LEGAL STANDARD
The Court applies California law to determine
whether to award attorney’s fees and costs, and the
amount to award. See Mangold v. California Pub. Utilities
Comm’n, 67 F.3d 1470, 1478 (9th Cir. 1995). Generally,
each party must bear its own attorney fees for litigation
in California; however, reasonable attorney fees are
permitted when authorized by contract. Cal. Civ. Proc.
■Code §§ 1021; 1032(b); 1033.5(a)(10)(A). California ap-plies
the lodestar/multiplier method to determine the amount
of attorney’s fees to award. Ketchum v. Moses, 24 Cal. 4th
1122,1134-36 (2001). The Court computes the “lodestar”
by multiplying the number of hours reasonably expended
by each professional by that professional’s reasonable
hourly rate. Id. at 1131-32; Serrano v. Unruh, 32 Cal. 3d
621, 624 (1982).

1. Chase consented to having its default entered. Dkts. 35-37.

6a
Appendix B
III. DISCUSSION
A. Basis for Fees and Reasona-bleness of Rates
LPP contends that, as the prevailing party, fees are
authorized here by contract. See Mot. at 4-9 (relying on
Cal. Civ. Proc. Code §§ 1021,1032(b); 1033.5(a)(10)(A); Cal.
Civ. Code § 1717; and attorney fee provisions in Note and
Deed of Trust); see also Abdallah v. United Sav. Bank,
43 Cal. App. 4th 1101, 1111, as modified on denial of
reh’g (March 22,1996) (finding no apportionment of fees
necessary where the contract claim is intertwined with
other claims). Gates fails to oppose and so concedes that
fees are warranted on this basis. LPP further contends
that its counsel’s hourly rates are reasonable.2 Gates
concedes the reasonableness of these rates.
B. Time Entries with Redacted Information
Gates objects that certain time entries contain
redacted information precluding him from determining
whether certain work was reasonable or necessary. After
reviewing the entries with redacted information, the
Court finds LPP provided sufficient information to judge
whether these fees are appropriate, particularly given
most entries constitute privileged communications and
request reimbursement for small increments of time.
See Democratic Party of Washington State v. Reed,
2. These rates are: between $400 and $425 per hour for
Regina J. McClendon; $325 per hour for Lindsey Kress; $190
per hour for Len Shaffer and Nelsene Richards. See Dkt. 96
(McClendon Decl., IN 3, 5, 7 & n.l).

7a
Appendix B
388 F.3d 1281, 1286 (9th Cir. 2004); see also Wershba v.
Apple Computer, Inc., 91 Cal. App. 4th 224, 255 (2001)
(“California case law permits fee awards in the absence
of detailed time sheets. An experienced trial judge is in
a position to assess the value of the professional services
rendered in his or her court.”) (citations omitted). LPP
may recover fees for these partially redacted entries.
C. Fees Associated with Including Chase
Gates also objects to fees associated with naming
Chase as a defendant. A “judicial sale removes liens from
the property junior to the one being foreclosed if the
junior lienors are made parties to the action.” Sumitomo
Bank v. Davis, 4 Cal. App. 4th 1306,1314 (1992) (citations
omitted); cf. Diamond Benefits Life Ins. Co. v. Troll, 66
Cal. App. 4th 1, 7-8 (1998) (“The rule that we support
here simply requires a foreclosing party in a judicial
foreclosure to give notice to persons who have a recorded
interest in the real property which is junior to that of the
foreclosing party”). If Chase had not been a party, its
interests would be unaffected by the foreclosure and it
could have retained a right of redemption. See Arabia v.
BAC Home Loans Servicing, L.P., 208 Cal. App. 4th 462,
481 (2012) (“A junior lienholder’s interest in a property
that is subject to a judicial foreclosure on a senior lien is
not affected if the junior lienholder is not included as a
defendant in the judicial foreclosure action”) (citing Cal.
Civ. Proc. Code § 726(c)); see also Diamond Benefits, 66
Cal. App. 4th at 5, 8-11.

8a
Appendix B
While naming Chase was not necessary to validly
foreclose its senior lien, by doing so, LPP ensures
Chase’s junior lien is extinguished in the foreclosure sale.
The Court therefore agrees that including Chase was
reasonably necessary for LPP to obtain efficient relief
in its request for judicial foreclosure. The alternative / finding that LPP or Chase would be required to incur
these costs - makes little sense. Gates benefitted from
a second loan secured by the property; as a result, LPP
then expended effort clearing this junior lien by naming
Chase as an incidental defendant. Because LPP chose to
pursue its remedy in this way, these fees are encompassed
within the attorney fee provisions in the Note and Deed
of Trust, particularly given the liberal construction of
such provisions under Cal. Civ. Code § 1717(a). See Mot.
at 6-7 (lender “may invoke the power of sale and any
other remedies permitted by Applicable Law” and “shall
be entitled to collect all expenses incurred in pursuing
[these] remedies . . . including . . . reasonable attorney’s
fees”); see also Blickman Turkus, LP v. MF Downtown
Sunnyvale, LLC, 162 Cal. App. 4th 858, 894 (2008). For
these reasons, LPP may recover these fees.
D. Fees for Counterclaim and Sanctions
Gates complains that LPP includes time spent on
Banks’s counterclaim. The Court previously sanctioned
Gates and his counsel $17,474.50 for fees LPP incurred
in moving to dismiss the counterclaim and amended
counterclaim and prosecuting the related motion for
sanctions. Dkt. 67. LPP has made clear it is not seeking
double recovery for these fees. Mot. at 10; Reply at 3-4.

9a
Appendix B
LPP should not be precluded from seeking other fees not
included in that sanction award, but nonetheless related
to this work. In seeking sanc-tions, LPP stated it was
seeking recovery of the fees “it has incurred thus far”
and fees it “expects to incur.” Dkt. 55 (McClendon Deck
at 1117). At the time the sanc-tions motion was filed, Ms.
McClendon listed her hours between April 1, 2016 and
May 30, 2016 and provided an estimate of the minimum
hours she expected to spend before these issues were
resolved - which did not occur until August 30,2016. See
id. At the time LPP requested $17,474.50, its counsel may
not have anticipated that Gates would file a late opposition
asking the Court to sanction LPP and its counsel, or
that LPP would have to re-serve Gates after his counsel
moved without notifying LPP. See Dkts. 55, 60, 61. To
forbid recovery of fees because they were not included in
the sanctions award would have the undesired effect of
penalizing a party that brought a meritorious sanctions
motion. LPP has provided detailed time entries related
to these issues, which the Court finds were reasonably
necessary to resolve them, and subtracted the sanctions
award to prevent improper double recovery. Gates’s
arguments in opposition and blanket objections are
therefore misplaced and do not provide the Court with a
legitimate reason for denying these fees.
IV. CONCLUSION
After considering the time entries provided and
the parties’ briefs, the Court finds the fees requested
to be reasonable and necessary. The Court notes, for
example, that LPP seeks fees only until November 30,

10a
Appendix B
2016 - despite having to spend time from December 2016
through February 2017 responding to Gates’s opposition
to its motion for summary judgment (which was, again,
late and relied on a late-disclosed expert), appearing at the
hearing on that motion, preparing the necessary judgment
for a judicial foreclo-sure, and litigating this fees motion.
See Dkt. 96 (McClendon Decl. at 11 6 & Ex. A). As LPP
notes, Gates did not object to LPP’s request for $6,851.98
in costs. See Dkt. 95 at 34-36. The Court therefore awards
LPP $69,156.94 in fees and $6,851.98 in costs, for a total
of $76,008.92.
IT IS SO ORDERED.

